        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Weatherization Assistance Program
Funded under the American Recovery
and Reinvestment Act for the State of
Michigan




OAS-RA-13-25                         June 2013
                                 Department of Energy
                                    Washington, DC 20585
                                          June 18, 2013



MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Weatherization Assistance Program Funded under the American
                         Recovery and Reinvestment Act for the State of Michigan"

BACKGROUND

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of
Energy's (Department) Weatherization Assistance Program (Weatherization Program) received
$5 billion to improve the energy efficiency of residences owned or occupied by low-income
persons. The Department subsequently awarded a Recovery Act Weatherization Program grant
of over $250 million to the State of Michigan, which included an additional Recovery Act award
of nearly $7 million of Sustainable Energy Resources for Consumers funding. This grant
provided roughly 10 times the $26 million in Department funds available to Michigan for
weatherization in Fiscal Year 2009.

The Michigan Bureau of Community Action and Economic Opportunity administers these
Recovery Act grants through 31 local community action agencies and a limited purpose
organization. These agencies are responsible for determining applicant eligibility, assessing and
weatherizing homes, and conducting home inspections. Michigan's goal was to weatherize more
than 28,000 homes with Recovery Act funding, providing services to qualified elderly and
disabled low-income persons on a priority basis. Through June 30, 2012, Michigan reported
weatherizing almost 35,000 homes at a cost of $221 million.

Given the significant increase in funding and demands associated with weatherizing thousands of
homes, we initiated this audit to determine if Michigan, and three of its local agencies – City of
Detroit Department of Human Services (Detroit), Area Community Services Employment and
Training Council Community Action Agency (ACSET), serving the Grand Rapids area, and
Southwest Michigan Community Action Agency (Southwest) – had effectively managed the
Weatherization Program. This report focuses on conditions common to the local entities
reviewed.
                                                2


RESULTS OF AUDIT

We identified opportunities for Michigan and the three local agencies reviewed to improve
management of the Weatherization Program. Specifically:

    •   We found persistent problems with the quality of weatherization work within Michigan.
        Based on our review of 412 state inspection reports for 6 agencies, we noted that more
        than a third of the homes weatherized (41 percent or 170 homes) required "call-backs" to
        address faulty workmanship and/or install additional materials. These were homes that
        had already received a final inspection and had been determined to be completed by the
        local agencies. Together, the 6 agencies received about a third of Michigan's funding
        and were expected to weatherize about 11,000 homes. Our interviews with homeowners
        confirmed the troubling re-inspection statistics − homeowners contacted in 11 of 29
        Detroit homes and 4 out of 13 ACSET homes described problems that had either
        developed subsequent to, or had not been identified as part of the final inspection
        process and had been referred back to the contractor performing the work. These issues
        became prevalent because state and local agencies had not analyzed inspection reports to
        identify and address commonly occurring work deficiencies and contractors that
        repeatedly under-performed.

    •   Local agencies in our sample had requested reimbursement for weatherization services
        that had either not been completed or had never been performed. Detroit, for example,
        requested reimbursement for the costs of two homes totaling about $3,500 when services
        had not been fully completed due, in one case to the death of the occupant, and in the
        other to an owner who had experienced scheduling conflicts stemming from a change in
        employment. This occurred because the agencies had not sufficiently reviewed invoices
        and reconciled them with work orders and inspection reports.

    •   Eligibility for weatherization services had not always been properly verified. ACSET
        provided assistance to an applicant who exceeded the income eligibility requirements.
        In another case, despite information obtained during home assessments indicating the
        number of residents originally reported in eligibility applications differed from the
        actual occupants in the home at the time of assessment, Detroit had not re-determined
        eligibility. In fact, in 25 of the 60 cases reviewed, the number of occupants in the home
        at the time of assessment had either increased (18 of the 25 cases), decreased, or could
        not be verified. Because eligibility for weatherization services is based upon the
        composite income of all occupants, a change in occupancy can render a home ineligible
        for weatherization services depending on the effect on household income. Additionally,
        we found that ACSET had not always considered whether dwelling units were
        designated for clearance or acquisition by Federal, state or local agencies when making
        eligibility determinations. In total, we questioned about $112,300 related to potentially
        ineligible weatherization services. These conditions occurred, in part, because local
        agencies had not sufficiently reviewed home and client intake applications and had not
        fully understood Weatherization Program guidance. Additionally, manual
        recordkeeping activities initially caused Michigan and its local agencies difficulty in
                                                  3


        determining initial and on-going eligibility, maintaining inspection and billing files, and
        evaluating workmanship deficiencies. To its credit, Michigan recognized the issues
        associated with the lack of automation, and implemented an automated system to
        capture weatherization activities such as weatherization eligibility determinations.

    •   One local agency misreported jobs created and saved by not reporting jobs retained.
        Local agency officials told us they had not been sufficiently trained on reporting
        requirements.

Similar to issues we identified in a series of reports on Weatherization Programs in other states,
this report offers valuable lessons learned related to identifying and addressing systemic quality
problems. Overall, we questioned $115,800 for reimbursement of weatherization services (See
Appendix 1 for a Summary of Questioned Costs) that had not been completed or verified as
completed or were potentially ineligible. As we have observed a number of times, problems in
this area limit the effectiveness of the Weatherization Program, and increase the risk of health
and safety impacts on recipients of services. We made a number of recommendations designed
to improve the Weatherization Program in the areas of quality of work, financial monitoring and
eligibility determination.

We have issued separate reports on ACSET and Southwest for conditions that we considered to
be specific to those entities. To help fulfill the responsibilities of auditing the local entities of
Michigan's Weatherization Program, we contracted with Lani Eko & Company, CPAs, PLLC
(Lani Eko), an independent certified public accounting firm. Lani Eko's reports include:

    •   Examination Report on Area Community Services Employment and Training Council −
        Weatherization Assistance Program Funds Provided by the American Recovery and
        Reinvestment Act of 2009, (OAS-RA-13-23, June, 2013); and

    •   Examination Report on Southwest Michigan Community Action Agency −
        Weatherization Assistance Program Funds Provided by the American Recovery and
        Reinvestment Act of 2009, (OAS-RA-13-24, June, 2013).

Lani Eko was responsible for conducting these examinations in accordance with attestation
standards established by the American Institute of Certified Public Accountants as well as those
additional standards contained in Government Auditing Standards, issued by the Comptroller
General of the United States. The Office of Inspector General monitored the progress of the
examinations and reviewed the reports and related documentation. Our review disclosed no
instances in which Lani Eko did not comply, in all material respects, with the attestation
requirements. Lani Eko is responsible for the examination reports and the conclusions expressed
in these reports.

MANAGEMENT REACTION

The Department and Michigan provided responses to our draft audit report. We provided Detroit
the opportunity to review and provide feedback on the report. However, we did not receive
comments from Detroit because the agency responsible for the Weatherization Program had
                                              4


ceased to exist and Michigan had already initiated program closeout procedures for sub-grant.
The Department concurred with our recommendations and credited Michigan for the positive
actions taken in response to our recommendations. Michigan has reportedly taken action to
correct many of the problems discovered, including improving local agency training, developing
a trend analysis tool for use in technical monitoring, and implementing billing process
improvements. Michigan did not agree with our citation of questioned costs and reported having
taken action to address the issues cited in our report.

ACSET and Southwest responded separately to their examination reports. Both provided
responses that were in general agreement with the recommendations and provided completed,
planned and ongoing actions to address the issues identified. Specifically, ASCET contended
that it was in compliance, in all material respects, with the elements of the Department's
Weatherization Program under the Recovery Act and has corrected any omissions or errors in
procedure or reporting through the implementation of new and/or enhanced procedures.
Southwest Michigan reportedly implemented process improvements and corrective actions to
address the specific recommendations identified in Lani Eko's report. ASCET and Southwest
comments were included and addressed in separate reports prepared by Lani Eko.

The comments from the Department and Michigan are discussed in more detail in the body of the
report and are included in Appendix 4.

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Acting Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S WEATHERIZATION
ASSISTANCE PROGRAM FUNDED UNDER THE AMERICAN
RECOVERY AND REINVESTMENT ACT FOR THE STATE OF
MICHIGAN

TABLE OF
CONTENTS

Michigan's Weatherization Assistance Program

Details of Finding ..................................................................................................................1

Recommendations ..................................................................................................................5

Management Reaction and Auditor Comments .....................................................................6


Appendices

1. Summary of Questioned Costs.........................................................................................7

2. Objective, Scope and Methodology .................................................................................8

3. Related Reports ................................................................................................................10

4. Management Comments ..................................................................................................13
THE DEPARTMENT OF ENERGY'S WEATHERIZATION ASSISTANCE
PROGRAM FUNDED UNDER THE AMERICAN RECOVERY AND
REINVESTMENT ACT FOR THE STATE OF MICHIGAN
Background

The State of Michigan had not always ensured that its Weatherization Assistance Program
(Weatherization Program) activities funded by the American Recovery and Reinvestment Act of
2009 (Recovery Act) were performed efficiently and effectively. In particular, our work at state
and local agency levels identified weaknesses in managing the quality of workmanship, assuring
completion of work and assessing eligibility. In total, we questioned about $115,800 for work
that had not been, or could not be verified as completed, and for weatherization services
provided to both ineligible and potentially ineligible applicants and homes.

Identifying and Resolving Issues with the Quality of Work

Based on our sample of inspection reports prepared by Michigan between January 2010 and July
2011, 170 of 412 (41 percent) homes weatherized by 6 local agencies, required a "call-back" to
correct faulty work, install additional materials and/or re-inspect work. The homes had
previously passed final inspection by the local agencies. Common deficiencies included
incomplete home insulation and failure to ensure homes were sealed to the required range. In
one extreme case, the contractor had not repaired attic water leaks, a measure required to protect
insulation, and had not tuned, repaired or replaced a furnace emitting elevated levels of carbon
monoxide.

We observed similar issues when we accompanied state and local officials on a review of homes
previously inspected. Specifically:

    •    During our on-site visits to 29 homes weatherized by the City of Detroit Department of
         Human Services (Detroit), 11 homeowners described issues that had developed
         subsequent to, or were not identified as part of the final inspection process, and were
         confirmed by state and local inspectors who accompanied us during the home visits.
         These included potential health and safety issues. In one case, contractors had failed to
         vent a client's dryer, a required health and safety measure in Michigan to prevent the
         accumulation of highly combustible lint. Within this same household, contractors failed
         to detect a gas leak, creating a fire hazard. The issues were brought to the contractor's
         attention and corrected the day following our review.

    •    When we accompanied state and local officials to 13 homes weatherized and inspected
         by Area Community Services Employment and Training Council Community Action
         Agency (ACSET), additional repair and re-work items were identified at 5 homes.
         Additionally, four of these occupants expressed dissatisfaction with the work. State and
         local inspectors confirmed the issues and referred their concerns to its contractors for
         correction.

Despite the fact that issues with the quality of work were prevalent, Michigan and its local
agencies had not analyzed inspection reports to identify commonly occurring weatherization
deficiencies and contractors that repeatedly under-performed. The ongoing and recurring nature
of inspection findings suggested that identifying the root cause would be beneficial to, among

Page 1                                                                         Details of Finding
other things, developing corrective action plans and enhancing training. Local officials told us
contractors received state mandated training, but were not provided specific ongoing training on
recurrent quality of work issues. State officials told us they understand the importance of trend
analysis and have encouraged subgrantees to proactively identify systemic problems. However,
the agencies in our review corrected quality of workmanship issues only on a case-by-case basis.
As a result, Detroit officials told us they were unaware of the chronic nature of weatherization
re-work needed and the number of instances of underperforming contractors.

The importance of identifying under-performing contractors and commonly recurring problems
cannot be overstated. Our work indicated that 2 of 13 Detroit contractors and 2 of 8 ACSET
contractors were responsible for many of the workmanship issues identified after post
inspections. In fact, the two Detroit contractors had completed work on almost half of the
additional re-work items identified during our post-inspection visits. Similarly, the 2 ACSET
contractors performed work on 11 of the 12 homes requiring re-work. In two of these instances
at Detroit and three at ACSET, contractors were required to return at least twice to make all
needed corrections.

                                    Reimbursement Requests

Two local agencies we reviewed had requested reimbursement for work that had not been
performed. Federal and state regulations require local agencies to ensure weatherization work is
completed and inspected prior to counting homes as completed and requesting reimbursement.
Specifically:

    •    Of the 60 Detroit homes we reviewed, officials could not provide documentation
         confirming that contractors had properly reduced the amounts billed on two homes by
         $3,500 for repairs that had never been completed due to the death of one occupant and
         scheduling conflicts with the other occupant.

    •    ACSET had requested reimbursement for 12 of 45 homes reviewed prior to ensuring
         initial weatherization services had been provided, and subsequent re-work performed,
         had met weatherization quality of work standards. Subsequent to our review, ACSET
         released work orders to the contractors that performed weatherization services in
         dwelling units in which workmanship issues were identified during physical site visits.
         These repairs were performed without cost to ACSET. Additionally, ACSET provided
         completed Findings Reports as evidence that rework was completed.

In total, we questioned approximately $3,500 in reimbursements made for work that had not
been or could not be verified as completed.

These situations occurred because the agencies had not sufficiently reconciled invoices with
work orders and inspection reports. Michigan requires that local agencies use the invoice to
verify actual work completed prior to payment to the contractor. Local agencies relied on the
invoicing column of the Inspection Work-Order Cost-Center form without comparing the work
performed to the actual invoice submitted. Also, while each local agency was subject to an




Page 2                                                                        Details of Finding
annual state fiscal review, financial monitors primarily considered agency level labor, materials,
support and administrative costs, while state technical monitors primarily considered unit level
activities and transactions.

                                  Eligibility for Weatherization Services

The three local agencies we reviewed provided weatherization services to both ineligible and
potentially ineligible applicants and homes. Specifically:

    •    Applicant eligibility:

          Despite information obtained during home assessments indicating the number of
           residents originally reported in eligibility applications differed from the actual
           occupants, the Detroit had not re-determined eligibility. The Department of Energy
           (Department) stipulates that evaluation of eligibility must be based on total
           occupancy and requires reimbursement of "Department of Energy funds provided to
           pay the cost of weatherizing a unit if it is determined that the family unit occupying
           the residence was not eligible for weatherization assistance at the time such services
           were provided." In 25 of the 60 cases we reviewed, the number of occupants in the
           home at the time of assessment had either increased (18 of the 25 cases), decreased,
           or could not be verified. Because eligibility for weatherization services is based
           upon the composite income of all occupants, a change in occupancy can render a
           home ineligible for weatherization services depending on the effect on household
           income. We were unable to conclude on whether the homes were eligible for
           weatherization services at the time they were provided because income had not been
           re-determined, and consequently questioned about $106,000 in weatherization
           repairs. Given the fact that the Detroit had documented differences between the
           number of occupants reported in the original application, and those residing in the
           home just prior to weatherization, we believe it should have determined the
           eligibility of the unit prior to proceeding.

          Of the 45 cases reviewed, ACSET provided weatherization services to a family
           residing in a single-family dwelling whose income was above Michigan's ceiling. A
           family is income eligible if its combined income, based upon the number of
           occupants and the income earned by those occupants, does not exceed the greater of
           200 percent of the Federal poverty level or 60 percent of the state median income.
           In this case, ACSET provided services even though an applicant's income exceeded
           the 200 percent poverty ceiling of $44,100 by $3,818. Accordingly, we questioned
           $6,300 paid to weatherize the apparently ineligible unit. Following the audit team's
           identification of the ineligible applicant, ACSET reallocated the weatherization costs
           associated with this client to Michigan's Energy Optimization Fund.

    •    Home Eligibility:

          One local agency had not complied with regulations regarding the eligibility of units
           designated for acquisition or clearance. Specifically, ACSET weatherized four units
           without the owners certifying and without verifying whether the units had been

Page 3                                                                         Details of Finding
            designated for clearance (demolition) or acquisition by a Federal, state or local
            Government agency. Federal regulations prohibit the weatherization of units
            designated for acquisition or clearance by a Federal, state or local program within 12
            months from the date weatherization of the dwelling unit would be scheduled to be
            completed. Subsequent to our review and upon notification of this finding, ACSET
            contacted the four applicants and obtained current tax records indicating the
            applicants still have ownership of the homes that received weatherization services.

In total, we questioned about $112,300 in costs for weatherization services provided to both
ineligible and potentially ineligible applicants and homes. Problems with applicant and home
eligibility occurred because local agencies had not: (1) sufficiently reviewed home and client
intake applications; (2) compared the number of occupants in a home prior to weatherization to
those originally reported; and, (3) fully understood Weatherization Program guidance.

Further, because weatherization activities have, for the most part, been recorded manually, local
agencies and Michigan have had difficulty determining initial and ongoing eligibility,
maintaining inspection and billing files, and evaluating workmanship deficiencies statewide. To
its credit, Michigan has recognized the issues associated with the lack of automation, and was, at
the time of our audit, addressing electronic information storage needs. In July 2011, Michigan
began the implementation phase of its data management system, DBS FACS Pro, to capture
weatherization activity, including income eligibility determinations and assessing weatherization
needs.

                      Reporting the Number of Jobs Created and Retained

Contrary to Recovery Act requirements, one of the local agencies reviewed, Southwest Michigan
Community Action Agency (Southwest), had not correctly calculated and reported total jobs
created and retained. Specifically, the agency based the number of jobs reported on new
weatherization hires each month, rather than on the number of jobs created and retained. Six of
Southwest's current employees worked 1,740 hours during the months of October through
December 2010, which had not been included as part of the total "Jobs Created and Retained"
reported to the State. Further, two new Recovery Act employees worked 20 hours during the
same period that were omitted from the "Jobs Created and Retained" report provided to
Michigan. Michigan requires local agencies to report Recovery Act activities, including jobs
created and retained, on a standardized template. Local agency officials told us they had not
received sufficient training on how to calculate and report the number of jobs created and saved.
According to Southwest officials, the errors identified have reportedly been corrected.

                                Impact of Identified Weaknesses

If uncorrected, the weaknesses we identified could pose health and safety risks to residents,
hinder production and increase Weatherization Program costs. Uncorrected, these weaknesses
increase the risk of fraud, waste and abuse. In total, we identified questioned costs in the amount
of about $115,800 associated with weatherization services provided without support of final
completion or without valid eligibility.




Page 4                                                                         Details of Finding
                                         Other Reports

As previously noted, we have issued reports on ACSET and Southwest, under separate covers.
Under the Recovery Act, we were responsible for auditing local entities of Michigan's
Weatherization Program. To help fulfill these responsibilities the Office of Inspector General
contracted with Lani Eko & Company, CPAs, PLLC (Lani Eko), an independent certified public
accounting firm. Lani Eko's reports include:

    •    Examination Report on Area Community Services Employment and Training Council −
         Weatherization Assistance Program Funds Provided by the American Recovery and
         Reinvestment Act of 2009, (OAS-RA-13-23, June 2013); and

    •    Examination Report on Southwest Michigan Community Action Agency −
         Weatherization Assistance Program Funds Provided by the American Recovery and
         Reinvestment Act of 2009, (OAS-RA-13-24, June, 2013).

Lani Eko was responsible for conducting these examinations in accordance with attestation
standards established by the American Institute of Certified Public Accountants as well as those
additional standards contained in Government Auditing Standards, issued by the Comptroller
General of the United States. The Office of Inspector General monitored the progress of the
examinations and reviewed the reports and related documentation. Our review disclosed no
instances in which Lani Eko did not comply, in all material respects, with the attestation
requirements. Lani Eko is responsible for the examination reports and the conclusions expressed
in these reports.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy
require the State of Michigan to:

    1. Implement a system for identifying the root cause of poor workmanship and take
       appropriate corrective action;

    2. Provide training on identifying and correcting weatherization issues and Recovery Act
       reporting requirements;

    3. Strengthen fiscal and program oversight, especially in areas of billing and payment
       processing; and

    4. Require local agencies to thoroughly review intake applications.

Further, we recommend that the Department's Contracting Officer work with the State of
Michigan to:

    5. Resolve questioned costs in the amount of $115,800 associated with weatherization
       services provided, and examine the reasonableness of costs related to multi-family
       dwellings.

Page 5                                                                     Recommendations
MANAGEMENT REACTION AND AUDITOR COMMENTS

The Department and Michigan provided responses to our draft audit report that are included in
their entirety in Appendix 4. We provided Detroit the opportunity to review and provide
feedback on the report. However, we did not receive comments from Detroit because the agency
responsible for the Weatherization Program had ceased to exist and Michigan had already
initiated program closeout procedures for subgrant. Comments from ACSET and Southwest are
included in the previously discussed Lani Eko reports. We revised our report as appropriate to
address the comments received. A summary of key responses is provided in the following
section.

                                     Department Comments

The Department concurred with our recommendations and will continue to monitor the grantee
and sub-grantees to ensure resolution of issues identified in the report. The Department provided
suggested revisions based upon its interpretation of the policy and guidance on cost limitations
for multi-family dwellings. The Department reviewed the State's analysis of questioned costs
and believes that Michigan acted in accordance with policy.

                          Auditor Response to Department Comments

The Department's comments were generally responsive to our recommendations. Where
appropriate, we have credited Michigan and the local agencies for their actions taken to improve
the Weatherization Program.

                                        State Comments

Michigan generally did not agree with the content of our report or our recommendations.
Michigan commented that the report focused heavily on Detroit local weatherization agency and
suggested that we re-evaluate the questioned costs cited in the report. Michigan reported that
many of our recommendations have already been addressed. Michigan stated that it continues to
work with Detroit to close out its Recovery Act contract. Additionally, Michigan reports having
provided Recovery Act training opportunities to its network agencies, developed a trend analysis
tool for use in technical monitoring, and made significant changes to the process used to review
local agency billing.

                             Auditor Response to State Comments

We revised the report to give consideration to Michigan's concerns, as appropriate. We have
credited Michigan for the actions taken to improve its Weatherization Program and the planned
effort to correct these conditions. In that regard, we incorporated changes to address actions
taken by the State in the body of the report.




Page 6                                       Management Reaction and Auditor Comments
 Appendix 1


                                SUMMARY OF QUESTIONED COSTS



             Agency                                 Condition                    Questioned Costs

City of Detroit Department of      Billed for work without evidence of
Human Services                     completion                                 $3,500

       Subtotal Improper Billing
                                                                                              $3,500

Area Community Services
Employment and Training Council    Weatherized home of ineligible applicant
Community Action Agency            and multifamily units                      $6,300

City of Detroit Department of
Human Services                     Did not update eligibility                 $106,000

     Subtotal Eligibility
                                                                                            $112,300

Total Questioned Costs
                                                                                            $115,800




 Page 7                                                            Summary of Questioned Costs
Appendix 2

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

To determine whether the State of Michigan had adequate safeguards in place to ensure that the
Weatherization Assistance Program (Weatherization Program) was managed efficiently and
effectively, and was in compliance with Federal and state laws and regulations.

SCOPE

This audit was performed between February 2011 and May 2013, at the Michigan Bureau of
Community Action and Economic Opportunity located in Lansing, Michigan. We made site
visits to one local action agency – City of Detroit Department of Human Services (Detroit)
located in Detroit, Michigan. Additionally, an independent certified public accounting firm
under contract with the Office of Inspector General conducted site visits to two agencies –
Southwest Michigan Community Action Agencyand the Area Community Services Employment
and Training Council Community Action Agency, respectively located in Benton Harbor and
Grand Rapids, Michigan.

METHODOLOGY

To accomplish the audit objective, we:

    •    Reviewed applicable laws, regulations, and guidance pertaining to the Weatherization
         Program under the American Recovery and Reinvestment Act of 2009 (Recovery Act);
         as well as laws, regulations and guidance applicable to Michigan's Weatherization
         Program.

    •    Reviewed 412 inspection reports prepared by Michigan between January 2010 and July
         2011, for homes weatherized by 6 local agencies we selected based on our risk
         assessment.

    •    Selected judgmental samples of 60 homes weatherized by Detroit that we reviewed for
         quality of work based on either file reviews and/or physical inspection.

    •    Met with Department and Michigan officials to discuss current and ongoing efforts to
         implement the requirements of the Weatherization Program under the Recovery Act.

    •    Reviewed applicant and unit eligibility, as well as general ledger information to analyze
         costs incurred. Additionally, the audit included reviewing Weatherization Program
         client files and reports, and physically observing the weatherization work performed at
         the three local agencies.

    •    Reviewed the procurement process over weatherization materials, vehicles and
         equipment, including inventory controls.



Page 8                                                     Objective, Scope and Methodology
Appendix 2 (continued)

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Because our review was limited,
it would not necessarily have disclosed all internal deficiencies that may have existed at the time
of our audit. Also, we considered the establishment of Recovery Act performance measures,
which included certain aspects of compliance with the GPRA Modernization Act of 2010 as
necessary to accomplish the objective. We did not rely on computer-processed data.

We discussed the contents of this report with State officials on June 5, 2013. Department
officials waived an exit briefing.




Page 9                                                     Objective, Scope and Methodology
Appendix 3


                                       PRIOR REPORTS

Under the American Recovery and Reinvestment Act of 2009, the Office of Inspector General
has initiated a series of audits designed to evaluate the Department of Energy's Weatherization
Assistance Program's internal control structures at the Federal, State and local levels. Although
not found in every state, these audits have identified issues in areas such as poor quality of
weatherization services, inspections and re-inspections, inadequate inventory controls and
questioned costs resulting from the ineffective administration of the Weatherization Assistance
Program grants. Our series of audit reports include the following:

    •   Examination Report on Southwest Michigan Community Action Agency −
        Weatherization Assistance Program Funds Provided by the American Recovery and
        Reinvestment Act of 2009, (OAS-RA-13-24, June, 2013)

    •   Examination Report on Area Community Services Employment and Training Council −
        Weatherization Assistance Program Funds Provided by the American Recovery and
        Reinvestment Act of 2009, (OAS-RA-13-23, June 2013)

   •    Examination Report on Fresno County Economic Opportunities Commission –
        Weatherization Assistance Program Funds Provided by the American Recovery and
        Reinvestment Act of 2009 (OAS-RA-13-11, February 19, 2013)

   •    Audit Report on The Department of Energy's Weatherization Assistance Program
        Funded under the American Recovery and Reinvestment Act for the State of Maryland
        (OAS-RA-13-07, January 17, 2013)

   •    Examination Report on Montgomery County Department of Housing and Community
        Affairs – Weatherization Assistance Program – Funds Provided by the American
        Recovery and Reinvestment Act of 2009 (OAS-RA-13-06, January 17, 2013)

   •    Examination Report on Prince George's County Department of Housing and Community
        Development – Weatherization Assistance Program Funds Provided by the American
        Recovery and Reinvestment Act of 2009 (OAS-RA-13-05, January 17, 2013)

   •    Examination Report on Community Action Partnership of Orange County –
        Weatherization Assistance Program Funds Provided by the American Recovery and
        Reinvestment Act of 2009 (OAS-RA-13-03, October 17, 2012)

   •    Audit Report on The Department of Energy's Weatherization Assistance Program under
        the American Recovery and Reinvestment Act in the State of Ohio (OAS-RA-12-13, June
        25, 2012)

   •    Audit Report on The Department of Energy's Weatherization Assistance Program
        Funded under the American Recovery and Reinvestment Act for the State of New York
        (OAS-RA-12-07, April 6, 2012)



Page 10                                                                            Prior Reports
Appendix 3 (continued)


  •   Examination Report on Saratoga County Economic Opportunity Council, Inc. –
      Weatherization Assistance Program Funds Provided by the American Recovery and
      Reinvestment Act of 2009 (OAS-RA-12-05, January 20, 2012)

  •   Examination Report on Action for a Better Community, Inc. - Weatherization Assistance
      Program Funds Provided by the American Recovery and Reinvestment Act of 2009
      (OAS-RA-11-21, September 30, 2011)

  •   Examination Report on People's Equal Action and Community Effort, Inc. –
      Weatherization Assistance Program Funds Provided by the American Recovery and
      Reinvestment Act of 2009 (OAS-RA-11-20, September 30, 2011)

  •   Examination Report on Cuyahoga County of Ohio Department of Development –
      Weatherization Assistance Program Funds Provided by the American Recovery and
      Reinvestment Act of 2009 (OAS-RA-11-19, September 29, 2011)

  •   Examination Report on Community Action Partnership of the Greater Dayton Area –
      Weatherization Assistance Program Funds Provided by the American Recovery and
      Reinvestment Act of 2009 (OAS-RA-11-18, September 29, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act in the State of Tennessee (OAS-RA-11-17,
      September 19, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program
      Funded under the American Recovery and Reinvestment Act for the Commonwealth of
      Virginia (OAS-RA-11-14, August 25, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program
      Funded under the American Recovery and Reinvestment Act in the State of Indiana
      (OAS-RA-11-13, August 23, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act in the State of Missouri (OAS-RA-11-12,
      August 22, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act in the State of West Virginia (OAS-RA-11-
      09, June 13, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program
      Funded under the American Recovery and Reinvestment Act for the State of Wisconsin
      (OAS-RA-11-07, June 6, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act for the Capital Area Community Action
      Agency – Agreed-Upon Procedures (OAS-RA-11-04, February 1, 2011)

Page 11                                                                   Related Reports
Appendix 3 (continued)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act for the City of Phoenix – Agreed-Upon
      Procedures (OAS-RA-11-03, November 30, 2010)

  •   Audit Report on Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
      Implement the American Recovery and Reinvestment Act Weatherization Assistance
      Program (OAS-RA-11-02, November 1, 2010)

  •   Audit Report on The State of Illinois Weatherization Assistance Program (OAS-RA-11-
      01, October 14, 2010)

  •   Audit Report on The Department of Energy's Use of the Weatherization Assistance
      Program Formula for Allocating Funds under the American Recovery and Reinvestment
      Act (OAS-RA-10-13, June 11, 2010)

  •   Preliminary Audit Report on Management Controls over the Commonwealth of Virginia's
      Efforts to Implement the American Recovery and Reinvestment Act Weatherization
      Assistance Program (OAS-RA-10-11, May 26, 2010)

  •   Special Report on Progress in Implementing the Department of Energy's Weatherization
      Assistance Program Under the American Recovery and Reinvestment Act (OAS-RA-10-
      04, February 19, 2010)

  •   Audit Report on Management Alert on the Department's Monitoring of the
      Weatherization Assistance Program in the State of Illinois (OAS-RA-10-02, December 3,
      2009)




Page 12                                                                    Related Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 13                            Management Comments
Appendix 4 (continued)




Page 14                  Management Comments
Appendix 4 (continued)




Page 15                  Management Comments
Appendix 4 (continued)




Page 16                  Management Comments
Appendix 4 (continued)




Page 17                  Management Comments
Appendix 4 (continued)




Page 18                  Management Comments
                                                                    IG Report No. OAS-RA-13-25

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
